                 SBA Generally Meets IPERA Reporting
                 Guidance but Immediate Attention Is
                    Needed to Prevent and Reduce
                        Improper Payments




March 15, 2012                                         Report Number 12-10
                                U.S. Small Business Administration
                                   Office Of Inspector General
                                      Washington, D.C. 20416


                                                                               REPORT TRANSMITTAL
                                                                              REPORT NUMBER 12-10
DATE:          MARCH 15, 2012

TO:            Jonathan I. Carver, Chief Financial Officer

               Jeanne A. Hulit, Associate Administrator for Capital Access

               James Rivera, Associate Administrator for Disaster Assistance

               Sean Greene, Associate Administrator for Investments

SUBJECT:       Review of SBA’s Improper Payments

This report presents the results of our Review of SBA’s Compliance with the Improper Payments
Elimination and Recovery Act (IPERA). Our objective was to determine the adequacy of SBA’s
compliance with IPERA and OMB’s implementing guidance, M-11-16. We have also attached a
copy of Advisory Memorandum 12-07, The SBA’s Improper Payment Review and Reporting for its
Contracting Activities did not Comply with IPERA and IPIA Requirements During FY 2011, which
details findings, recommendations and management’s response related to our review of the
disbursements and contracting area.

We request that you provide your management decision for each recommendation on the
attached SBA form 1824, Recommendation Action Sheet, by April 16 (30 days after final report
date). Your decision should identify the specific actions taken or planned for each
recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Chief Financial Officer, Office of
Capital Access, Office of Investment, and Office of Disaster Assistance during this review. If you
have any questions concerning this report, please call me at (202) 205-7390 or Jeffrey Brindle,
Director, Information Technology and Financial Management at (202) 205-7490.



/S/ original signed.
John K. Needham
Assistant Inspector General for Auditing
                   EXECUTIVE SUMMARY
                   SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to
                   Prevent and Reduce Improper Payments
                                                                                                       Report No. 12-10
                                                                                                         March 15, 2012


What OIG Audited                                               What OIG Found
This report represents the results of our review of SBA's      SBA was generally compliant in meeting the minimal
compliance with the Improper Payments Elimination and          reporting requirements for IPERA in its FY 2011 Agency
Recovery Act (IPERA) requirements. IPERA was enacted           Financial Report. However, our qualitative review of
on July 22, 2010, and the OMB issued implementing              Agency efforts to prevent and reduce improper payments
guidance on April 14, 2011 through OMB Memorandum              showed that immediate management attention is needed
M-11-16, Issuance of Revised Parts I and II to Appendix C      in four of the six programs or activities to improve the:
of OMB Circular A-123. Part II (A) of M-11-16 requires the           accuracy and completeness of reporting,
OIG to annually review their agency’s improper payments              sufficiency of improper payments recapturing
reporting in the Performance and Accountability Report                   activities, and
(PAR) or Agency Financial Report (AFR).                              quality of corrective action plans.

Our objective was to determine the adequacy of SBA’s           Moreover, the disbursements and contracting reporting
compliance with IPERA and OMB’s implementing                   segment did not include in the Agency Financial Report:
guidance, M-11-16. To achieve our audit objective we                a corrective action plan;
determined whether SBA addressed required provisions,               a payment recapture audit plan;
and we performed limited testing of compliance with
                                                                    an update to the Improper Payment reduction
these provisions. We also reviewed the completeness of                 outlook table.
improper payments disclosures in the AFR as specified in
OMB guidance and assessed the Agency’s efforts to
                                                               Furthermore, we found significant internal control
prevent and reduce improper payments. Finally, we
                                                               weaknesses in the 1) accuracy and completeness of
developed recommendations for actions to further
                                                               reported information and 2) use and deployment of
improve the agency’s or program’s performance in
                                                               corrective action plans to ensure resources are focused on
reducing improper payments.
                                                               the appropriate root causes of improper payments.

OIG Recommendations
We made 12 recommendations focused on improving the
completeness and accuracy of reported information and
improving corrective action plans.
                                                               Table 1. IPERA Evaluation by Program or Activity
Furthermore, the OIG also issued Advisory Memorandum
12-07, The SBA’s Improper Payment Review and Reporting         Evaluation Area      OIG Overall Assessment
for its Contracting Activities did not Comply with IPERA and
                                                               7(a) Approvals
IPIA Requirements During FY 2011 to provide timely
                                                               7(a) Purchases
feedback and detailed findings and recommendations. The
OCFO did not concur with the implication of non-               504
compliance for SBA’s contracting program contained in the      SBIC
OIG’s report. They do, however, intend to strengthen their     Disaster
business processes impacting their contracting program.        Disbursements/
                                                               Contracting
                                                                  Compliant Process
Actions Taken                                                     Partially met Guidance but Improvement Needed
Agency officials were generally responsive to our                 Immediate Management Attention Needed
recommendations and have initiated corrective actions
where appropriate. SBA advised us that they developed a
comprehensive plan that requires the program offices to
monitor their achievements in: robust risk assessment;
complete and accurate reporting; comprehensive
corrective action plan; and effective recapture activities.
Table of Contents
0BIntroduction .................................................................................................................................................. 1

   2BObjective and Scope ................................................................................................................................. 1

   Background ............................................................................................................................................... 1

Summary Results........................................................................................................................................... 3

Detailed Results ............................................................................................................................................ 4

   Section I. 4B7(a) Approvals ......................................................................................................................... 5

   Section II. 5B7(a) Purchases ......................................................................................................................... 9

   Section III. 6B504 Loans .............................................................................................................................. 13

   Section IV. 7BSmall Business Investment Company Payments ................................................................... 17

   Section V. 8BDisaster Loans ....................................................................................................................... 19

   Section VI. 9BDisbursements/Contracting .................................................................................................. 22

AGENCY COMMENTS AND OIG RESPONSE ................................................................................................. 26

Appendix I: Agency Comments ................................................................................................................... 27

Table 1. IPERA Evaluation by Program or Activity ....................................................................................... iii

Table 2. SBA IPERA Compliance with Reporting Requirements ................................................................... 3

Table 3. OIG’s Evaluation of Agency Efforts ................................................................................................. 3

Table 4. IPERA Compliance - 7(a) Approvals ................................................................................................. 5

Table 5. OIG Evaluation - 7(a) Approvals ..................................................................................................... 7

Table 6. IPERA Compliance - 7(a) Purchases ................................................................................................ 9

Table 7. OIG Evaluation - 7(a) Purchases .................................................................................................... 10

Table 8. IPERA Compliance - 504 Loans ..................................................................................................... 13

Table 9. OIG Evaluation - 504 Loans .......................................................................................................... 15

Table 10. IPERA Compliance - Small Business Investment Company Payments........................................ 17

Table 11. OIG Evaluation - Small Business Investment Company Payments ............................................. 18
Table 12. IPERA Compliance – Disaster Loans ........................................................................................... 19

Table 13. OIG Evaluation – Disaster Loans................................................................................................. 20

Table 14. IPERA Compliance - Disbursements/Contracting ....................................................................... 22

Table 15. OIG Evaluation - Disbursements/Contracting ............................................................................ 24
        Introduction
        0B




        This report presents the results of our review of the Small Business Administration’s (SBA)
        compliance with the requirements of the Improper Payments Elimination and Recovery Act
        (IPERA). The Act was effective on July 22, 2010. On April 14, 2011, the Office of Management
        and Budget (OMB) issued implementing guidance Memorandum M-11-16, Issuance of Revised
        Parts I and II to Appendix C of OMB Circular A-123 (M-11-16). Part II (A) of M-11-16 requires
        each Office of Inspector General (OIG) to annually review its agency’s improper payments
        reporting in the Performance and Accountability Report (PAR) or Agency Financial Report (AFR).

        Objective and Scope
        2B




        Our objective was to determine the adequacy of the SBA’s compliance with the IPERA and the
        OMB’s implementing guidance M-11-16. To achieve our objective, we interviewed officials from
        the SBA, reviewed SBA (the Agency) plans, and performed limited testing of compliance1 with
        identified controls and IPERA provisions. We also reviewed the completeness of improper
        payments disclosures in the FY 2011 AFR as specified in OMB guidance and assessed the SBA’s
        efforts to prevent and reduce improper payments. Our assessment of the SBA’s performance in
        reducing or recapturing improper payments was limited to the Agency’s completion of payment
        recapture audits. Finally, we developed recommendations for actions to further improve the
        SBA’s or program office’s performance in reducing improper payments. Except for our review of
        the calculation of the 7(a) purchases improper payment rate, our review was too limited to
        opine on the accuracy of reported information.

        We conducted this review between July 15, 2011 and February 10, 2012 in accordance with
        Generally Accepted Government Auditing Standards. Those standards require that we plan and
        perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
        our findings and conclusions based on our audit objectives. We believe that the evidence
        obtained provides a reasonable basis for our findings and conclusions based on our audit
        objectives.

        Background
        The Improper Payments Information Act of 2002 (IPIA) requires agencies to review programs
        and identify those susceptible to significant improper payments; report on the amount and
        causes of improper payments; and develop plans for reducing improper payments. Provisions of
        IPERA amended the IPIA by providing alternative improper payments measures, expanding the
        requirements for corrective action plans, and increasing the scope of recapture audits for all
        payments and program activities in excess of $1 million. The IPERA guidance further requires
        that each OIG annually review its agency’s improper payments reporting within 120 days of AFR
        issuance.

        The SBA’s four major credit programs 2 are subject to improper payments reporting as required
                                                F
                                                    F




        by the former Section 57 of OMB Circular A-11. In addition, the SBA identified contracting and
        disbursements as a risk-susceptible activity under the provisions of IPERA for FY2011.

1
  The OIG performed a statistical validation of the 7(a) purchase improper payment program and will be issuing a
  draft report at a later date.
2
  (7a) Business Loan program (Approvals and Purchases), the Section 504 Certified Development loan program, the
  Small Business Investment Company (SBIC) program and the Disaster Assistance loan program.
                                                        1
           Prior OIG audits have identified high percentages of disaster and business loans that were made
           to borrowers who were ineligible, lacked repayment ability, or did not provide the required
           support for disbursement. Those audits further determined that the improper payments rates
           reported for these programs were significantly understated. The magnitude of those findings
           has resulted in the OIG identifying the improper payments area as an SBA Management
           Challenge. 3F   F




           Summary Evaluation Criteria:
           Per Part II of M-11-16, the OIG conducted an IPIA compliance review in the following areas:

           Review reported results in the Agency’s AFR to include the following:

               Posted materials – Published a PAR or AFR for the most recent fiscal year and posted that
                report and any accompanying materials required by OMB on the agency website;

               Risk Assessment – Conducted a program specific risk assessment for each program or
                activity that conforms with Section 3321 of Title 31 U.S.C. (if required);

               Published estimates for susceptible programs – Published improper payments estimates
                for all programs and activities identified as susceptible to significant improper payments
                under its risk assessment(if required);

               Annual reduction target met – Published, and has met, annual reduction targets for each
                program assessed to be at risk and measured for improper payments;

               Reported Rate of less than 10% – Reported a gross improper payments rate of less than 10
                percent for each program and activity for which an improper payments estimate was
                obtained and published in the PAR or AFR;

               Reported recapture information – Reported information on its efforts to recapture
                improper payments;

           Evaluation of Agency efforts:

               Overall Assessment of Agency Efforts – OIG evaluation of agency efforts to prevent and
                reduce improper payments.

               Accuracy & Completeness of Agency Reporting – OIG assessment of internal controls
                related to reported information;

               Quality of corrective action plans – OIG evaluation whether corrective action plans are
                robust and focused on the appropriate root causes of improper payments

               Performance in reducing or recapturing improper payments – Agency’s performance of
                recapture audit.



3
    Challenge 9: “SBA needs to accurately report, significantly reduce, and strengthen efforts to recover improper
    payments in the Disaster and 7(a) loan programs.”
                                                            2
          Summary Results
          We reviewed SBA’s compliance with the completeness of disclosures in its FY 2011 AFR as
          specified in OMB guidance. The OIG’s conclusion for reported results, by activity area, is shown
          in Table 2. Table 3, below, provides OIG’s conclusions on the accuracy and adequacy of SBA’s
          efforts.

          Table 2. SBA IPERA Compliance with Reporting Requirements

                                         7(a)          7(a)      504      SBIC     Disaster   Disbursements/
                                       Approvals    Purchases   Loans   Payments    Loans       Contracting
            Posted materials
            Risk Assessment
            Published estimates for
            susceptible programs
            Annual reduction target
                                                                                                   N/A
            met
            Reported Rate of less than
            10%
            Reported recapture
            information
               Met Guidance
               Partially met guidance/Improvement Needed
               Immediate Management Attention Needed

          The OMB guidance further requested the that OIG evaluate the Agency’s overall efforts to
          prevent and reduce improper payments and provide recommendations for actions to further
          improve the agency’s or program’s performance in reducing improper payments.

          The results of the OIG’s evaluation of Agency efforts are summarized below:

          Table 3. OIG’s Evaluation of Agency Efforts

                                         7(a)          7(a)      504      SBIC     Disaster   Disbursements/
                                       Approvals    Purchases   Loans   Payments    Loans       Contracting
            Overall Assessment of                                                                    5
                           4
            Agency Efforts
                         F




            Accuracy & completeness
            of agency reporting
            Performance in reducing
            or recapturing improper
            payments
            Quality of corrective
            action plans
                Compliant process
                 Improvement Needed
                 Immediate Management Attention Needed




4
    We considered the Overall Assessment of Agency to be summary of our evaluation review.
5
    SBA OIG Management Advisory Memorandum 12-07 further details findings and recommendations in the
    Disbursements/Contracting area.

                                                           3
Detailed Results
The following Sections I-VI summarize, by reporting segment, the OIG’s review of the FY 2011
AFR results and Agency efforts to reduce improper payments per requirements of OMB
Memorandum 11-16. Related recommendations are also outlined which focus on improvement
of testing procedures and completion of corrective action plans. In addition, recommendations
have been provided in the disbursements/ contracting area to improve the reporting of results.

A summary of the major recommendations, by program area, includes the following:

   7(a) Approvals - Addressing the completeness of testing procedures, risk assessment
    methodology and quality of corrective action plans;

   7(a) Purchases – Addressing the completeness of testing procedures, accuracy of reported
    results, completeness of corrective action plans, and consideration of recapture audits;

   504 – Addressing the completeness of testing procedures, risk assessment methodology and
    quality of corrective action plans;

   SBIC – There were no recommendations;

   Disaster – Addressing the completeness of corrective action plans, and consideration of
    recapture audits;

   Disbursements/Contracting – These recommendations are contained in OIG Advisory
    Memorandum 12-07, The SBA’s Improper Payment Review and Reporting for its Contracting
    Activities did not Comply with IPERA and IPIA Requirements During FY 2011.




                                           4
Section I.         7(a) Approvals
                   4B




Table 4. IPERA Compliance - 7(a) Approvals

     IPIA Requirement         OIG Evaluation                                Discussion
 Posted Materials                              The SBA published improper payment disclosures for the program in the
                                               FY 2011 AFR. However, as noted in Table 5, we noted that management
 Criteria:                                     needs to improve the accuracy and completeness of posted materials.
     OMB M-11-16 - PAR or
      AFR published for the
                              Met Guidance
      most recent fiscal
      year.

 Risk Assessment                               Finding: The SBA used an inappropriate risk assessment methodology
                                               for 7(a) loan approvals. Specifically, the SBA combined both 7(a)
 Criteria:                                     guaranty loan approvals and 7(a) default purchases into a single risk
  OMB M-11-16 - a                             assessment. This methodology did not allow for an adequate risk
      program risk                             assessment because the risk of "improper payments" is different for
      assessment conducted.    Partially Met   each process. For example, the SBA could make an “improper
                                Guidance/      payments” by guaranteeing a loan that should not have been made due
                              Improvement      to eligibility or creditworthiness deficiencies, but the loan may not
                                 Needed        ultimately result in “improper purchase” if the loan does not default.
                                               Since the SBA already intended to conduct a statistically valid estimate
                                               of improper payments for both 7(a) approvals and purchases, the
                                               Agency did not place much focus on the risk assessments for these
                                               programs and overlooked the different risks affecting each program.

                                               Recommendation 1: We recommend that the Associate Administrator
                                               for Capital Access adjust the risk assessment to separately assess the
                                               risk of improper 7(a) guaranty loan approvals and improper 7(a)
                                               guaranty default.

                                               Agency Comment: Management agreed with our recommendation.
                                               The Office of Financial Program Operations (OFPO) will adjust the risk
                                               assessment for FY 2012 and provide a separate risk assessment for 7(a)
                                               approvals and 7(a) guaranty purchases.

                                               OIG Response: Management comments were responsive to the
                                               recommendation.

 Published Estimates for                       The SBA published an improper payment estimate in the FY 2011 AFR.
 Susceptible Programs                          However, as noted in Table 5, management needs to improve the
                                               accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 -
                              Met Guidance
      improper payments
      estimates identified
      for susceptible
      improper payments.




                                               5
Table 4. IPERA Compliance – 7(a) Approvals

     IPIA Requirement          OIG Evaluation                                 Discussion
 Annual reduction target                        The SBA published annual reduction targets in the FY 2011 AFR.
 met                                            However, as noted in Table 5, management needs to improve the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 –
                               Met Guidance
      Annual reduction
      targets met for each
      program assessed to
      be at risk.

 Reported Rate of Less Than                     The SBA reported an improper payment rate of less than 10% in the FY
 10%                                            2011 AFR. However, as noted in Table 5, management needs to
                                                improve the accuracy and completeness of posted materials.
 Criteria:
     Gross improper
      payments reported at
                               Met Guidance
      rate of less than 10
      percent.

 Reported Recapture                             The SBA published payment recapture information in the FY 2011 AFR.
 Information

 Criteria:
     OMB M-11-16 -
                               Met Guidance
      Reported efforts
      regarding recapture of
      improper payments.




                                                6
           Table 5. OIG Evaluation - 7(a) Approvals

                IPIA Requirement          OIG Evaluation                                    Discussion
            Overall Assessment of                          The SBA improper payments test procedures for the 7(a) loan approval
            Agency Efforts                                 program were limited and did not result in an accurate rate of improper
                                                           payments for the program. Additionally, some 7(a) loans approved
            Criteria:                                      within the fiscal year were not considered for testing by the SBA.
                OIG’s assessment of                       Finally, the SBA’s corrective action plan was based on an incomplete
                                           Immediate
                 Agency efforts to                         testing process.
                                          Management
                 prevent and reduce
                                            Attention
                 improper payments in
                                            Required
                 program area.
            Accuracy & Completeness                        Finding: The improper payments estimate for 7(a) loan approvals of 0
            of Agency Reporting                            percent is most likely inaccurate because the SBA’s limited test
                                                           procedures were not adequate to allow the Agency to identify all
            Criteria:                                      improper loan approvals (improper payments) within the 7(a) program.
                OMB M-11-16 - OIG                         The SBA’s testing process was limited to a review of SBA system data
                                           Immediate
                 assessment of internal                    and a determination as to whether the loan application and SBA loan
                                          Management
                 controls related to                       officer report (for SBA-approved loans only) were completed prior to
                                            Attention
                 reported information;                     loan approval. The testing process did not require the reviewer to
                                            Required
                                                           assess compliance with eligibility, use of proceeds, creditworthiness,
               13 CFR Part 120                            and repayment ability requirements. These are key areas where
                Business and Credit                        noncompliance could make a loan guaranty improper. For example, a
                                                                                    6
                Assistance regulations;                    recent OIG audit report determined a significant number of SBA 7(a)
                                                                                   F




                                                           Loans were not originated in compliance with SBA policies and
               SBA Standard                               procedures. SBA management stated that there was confusion as to
                Operating Procedures                       whether an improper loan approval constituted an improper payment
                (SOP) 50 10 5 Lender                       and believed resources were more appropriately devoted to the
                and Development                            purchase process where actual dollars are being disbursed.
                Company Loan
                Programs.                                  Recommendation 2: We recommend that the Associate Administrator
                                                           for Capital Access adjust the testing process for 7(a) loan approvals to
                                                           ensure all necessary documentation is obtained and a determination is
                                                           made as to whether the loans were approved in compliance with the
                                                           relevant program regulations and requirements.

                                                           Agency Comment: Management agreed with our recommendation.
                                                           Enhancements will be made to current testing processes to include a
                                                           more comprehensive review of the 7(a) loan approvals. This will ensure
                                                           that all necessary documentation is obtained and reviewed and a
                                                           determination is made as to whether the loans were approved in
                                                           compliance with all SBA program regulations and requirements.

                                                           OIG Response: Management comments were responsive to the
                                                           recommendation.




6
    ROM 11-07 Origination and Closing Deficiencies Identified in 7(a) Recovery Act Loan Approvals, issued
    September 30, 2011, estimated that at least 1,996 of the 6,467 loans approved and disbursed between June 1,
    2009 and January 31, 2010 were not originated and closed in compliance with SBA’s policies and procedures,
    resulting in at least $869.5 million in inappropriate or unsupported loan approvals.
                                                           7
Table 5. OIG Evaluation – 7(a) Approvals

      IPIA Requirement          OIG Evaluation                                   Discussion
 Performance in reducing or                      We limited our review to the applicability of recapture audits. The SBA
 recapturing improper                            has determined that payment recapture audits for this program would
 payments                                        not be cost effective because (1) only a small number of improper
                                                 payment cases involve eligibility issues, (2) other documentation
 Criteria:                                       deficiencies could be corrected by the lender, and (3) in most cases, the
                                  Compliant
     OMB M-11-16 -                              SBA would have no recourse for recovery against the lender on non-
                                   Process
      Agency’s performance                       delegated loan approvals.
      of recapture audit.

 Quality of corrective action                    Finding: The SBA did not prepare a corrective action plan or identify
 plans                                           root causes of improper payments for 7(a) guaranty approvals as it
                                                 identified an improper payment estimate of $0 for the program.
 Criteria:                                       However, as prior audits have found errors in loan origination, the SBA
     OMB M-11-16 - OIG                          may have a higher improper payment rate for 7(a) loan approvals than
                                 Immediate
      evaluation whether                         reported. Once an accurate rate is determined, SBA will need to
                                Management
      corrective action plans                    develop a corrective action plan to reduce improper payments.
                                  Attention
      are robust and focused
                                  required
      on the appropriate                         Recommendation 3: We recommend that the Associate Administrator
      root causes of                             for Capital Access, upon revising the improper payments test
      improper payments.                         procedures and estimating an accurate rate of improper payments,
                                                 develop a corrective action plan for 7(a) loan approvals that correctly
                                                 addresses root causes and will reduce improper payments.

                                                 Agency Comment: Management partially agreed with our
                                                 recommendation. When an improper payment is identified, OFPO will
                                                 develop and implement an appropriate corrective action plan that will
                                                 address the root cause and amount of the improper payment.

                                                 OIG Response: Management comments were responsive to the
                                                 recommendation.




                                                 8
Section II.        7(a) Purchases
                   5B




Table 6. IPERA Compliance - 7(a) Purchases

     IPIA Requirement          OIG Evaluation                                Discussion
 Posted Materials                               The SBA published improper payment disclosures for the program in the
                                                FY 2011 AFR. However, as noted in Table 7, management needs to
 Criteria:                                      improve the accuracy and completeness of posted materials.
     OMB M-11-16 - PAR or
      AFR published for the
                               Met Guidance
      most recent fiscal
      year.

 Risk Assessment                                The SBA performed an adequate risk assessment for improper
                                                payments for the program.
 Criteria:
     OMB M-11-16 - a
      program risk
      assessment               Met Guidance
      conducted.

 Published Estimates for                        The SBA published an improper payment estimate in the FY 2011 AFR.
 Susceptible Programs                           However, as noted in Table 7, management needs to improve the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 -
                               Met Guidance
      improper payments
      estimates identified
      for susceptible
      improper payments.

 Annual reduction target                        The SBA published annual reduction targets in the FY 2011 AFR.
 met                                            However, as noted in Table 7, management needs to improve the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 –
                               Met Guidance
      Annual reduction
      targets met for each
      program assessed to
      be at risk.

 Reported Rate of Less Than                     The SBA reported an improper payment rate of less than 10% in the FY
 10%                                            2011 AFR. However, as noted in Table 7, management needs to
                                                improve the accuracy and completeness of posted materials.
 Criteria:
     Gross improper
      payments reported at
                               Met Guidance
      rate of less than 10
      percent.

 Reported Recapture                             The SBA published payment recapture information in the FY 2011 AFR.
 Information                                    However, as noted in Table 7, management needs to support the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 -
                               Met Guidance
      Reported efforts
      regarding recapture of
      improper payments.

                                                9
Table 7. OIG Evaluation - 7(a) Purchases

     IPIA Requirement         OIG Evaluation                                  Discussion
 Overall Assessment of                         The SBA improper payment test procedures for 7(a) purchases were
 Agency Efforts                                incomplete and the SBA reported an understated rate of improper
                                               payments for the program. Additionally, the SBA did not conduct a
 Criteria:                                     cost/benefit analysis to adequately demonstrate whether conducting
     OIG’s assessment of                      Payment Recovery Audits (PRAs) would be cost effective. Finally, SBA’s
                                Immediate
      Agency efforts to                        corrective action plan was incomplete and based on an understated
                               Management
      prevent and reduce                       estimate of improper payments.
                                 Attention
      improper payments in
                                 Required
      program area.
 Accuracy & Completeness                       Finding: The SBA’s test procedures for improper payments for 7(a)
 of Agency Reporting                           purchases were incomplete. Specifically, the OIG determined that both
                                               the SBA purchase and improper payment reviews do not include a
 Criteria:                                     detailed analysis of creditworthiness (including repayment ability) on
  OMB M-11-16 - OIG                           early defaulted loans, as required by its own procedures.
                                Immediate
     assessment of internal
                               Management      Recommendation 4: We recommend that the Associate Administrator
     controls related to
                                 Attention     for Capital Access require loan officers to thoroughly evaluate
     reported information;
                                 Required      creditworthiness (including repayment ability) on early default loans
  SBA SOP 50 10 5 and 50                      during both guaranty purchase and improper payment reviews.
   51 3 establish that SBA
   loans must have                             Agency Comment: Management agreed with our recommendation.
   reasonable assurance of                     OFPO will reemphasize the requirement that loan officers thoroughly
   repayment and debt                          review repayment ability and creditworthiness on early default loans
   service coverage and                        during guaranty purchase and improper payment reviews. We
   that lender deficiencies                    recognize that there are varying levels of credit analysis experience
   regarding SBA                               among center staff, and we will provide credit analysis training, as well
   underwriting                                as quality control feedback, to loan officers to strengthen the
   requirements justify                        creditworthiness review.
   repair or denial of the
   guaranty on early                           OIG Response: Management comments are responsive to the
   default loans.                              recommendation.




                                               10
Table 7. OIG Evaluation – 7(a) Purchases

       IPIA Requirement       OIG Evaluation                                   Discussion
 Criteria:                                     Finding: The SBA reported an inaccurate and understated improper
  OMB M-11-16 - OIG                           payment rate of 1.73% or $40.7 million. The SBA OIG conducted an
     assessment of internal                    independent audit of the SBA's improper payment review process for
     controls related to                       7(a) purchases. The audit examined 30 loans out of the sample of 303
     reported information;                     loans that SBA reviewed. The OIG identified 6 loans in the sample of 30
                                               that had improper payments, whereas the SBA only identified that 1 of
  13 CFR Part 120                             the 30 loans as having an improper payment. Prior to reporting its
   Business and Credit                         improper payment rate, the SBA agreed that 6 of the 30 loans in the
   Assistance;                                 OIG’s sample had improper payments. Nevertheless, it did not
                                               adequately consider the impact of the OIG results when projecting its
  SOP 50 10 5 Lender and                      rate. The OIG’s statistician determined that had the other five loans
   Development Company                         been adequately considered, the SBA should have reported a rate of
   Loan Programs;                              9.86%, or $232.2 million, rather than the 1.73% and $40.7 that was
                                               reported.
  SOP 50 51 Loan
   Liquidation and                             Recommendation 5: We recommend that the Associate Administrator
   Acquired Property;                          for Capital Access determine and report an accurate and statistically
                                               valid estimate of improper 7(a) default purchases for FY 2012 in the
  SOP 50 51 3 Loan                            next Agency Financial Report.
   Liquidation.
                                               Agency Comment: Management partially agreed with our
                                               recommendation. The statistical methodology used by OCA resulted in
                                               an estimate of the improper payment rate for 7(a) guaranty purchases,
                                               which was reported in the Agency’s FY 2011 AFR. The OIG’s
                                               methodology, however, resulted in a higher rate due to the impact of
                                               five loans that the OIG identified as improper payments. Four of the
                                               five loans represented very small dollar amounts of improper payment,
                                               and had little impact on the overall improper payment rate. The fifth
                                               loan was very large and had a significant impact on the rate determined
                                               by the OIG due to the smaller sample size than that used by OCA. This
                                               projection methodology most likely represents the difference between
                                               the OCA improper payment rate of 1.73% and the OIG reported rate of
                                               9.86% for 7(a) guaranty purchases. The OCA recognizes that the true
                                               improper payment rate lies between OCA’s 1.73% and OIG’s 9.86%.
                                               The OCA is now working closely with the OIG to agree upon a consistent
                                               methodology for determining the estimated improper payment rate for
                                               the next reporting period.

                                               OIG Response: Management comments were responsive to the
                                               recommendation.




                                               11
Table 7. OIG Evaluation – 7(a) Purchases

      IPIA Requirement          OIG Evaluation                                   Discussion
 Performance in reducing or                      Finding: We limited our review to the applicability of recapture audits.
 recapturing improper                            The SBA did not develop a sound or systematic method for considering
 payments                                        payment recapture audits (PRA) for the 7(a) purchases. Specifically, the
                                                 SBA did not conduct a cost/benefit analysis to adequately demonstrate
 Criteria:                                       whether conducting PRAs would be cost effective. The SBA also did not
                                 Immediate
     OMB M-11-16 -                              provide a sound justification or basis for its conclusion that the low
                                Management
      Agency’s performance                       improper payment rate and the complexity of the program would affect
                                  Attention
      of recapture audit.                        the cost effectiveness of recapture audits. Previous OIG audits
                                  Required
                                                 demonstrate a favorable Return on Investment (ROI) from its audits of
                                                 purchased loans.

                                                 Recommendation 6: We recommend that the Associate Administrator
                                                 for Capital Access, upon completing the revised improper payment rate
                                                 projection for 7(a) purchases, conduct a detailed and objective
                                                 cost/benefit analysis for payment recapture audits of 7(a) purchases.

                                                 Agency Comment: Management partially agreed with our
                                                 recommendation. As stated in number 5 above, OCA has reported an
                                                 improper payment estimate that differs from the OIG estimate, and is
                                                 working closely with OIG to agree upon a consistent methodology for
                                                 the next reporting period. We will reevaluate the current cost/benefit
                                                 analysis to determine if a recapture audit of 7(a) purchases is cost
                                                 effective.

                                                 OIG Response: Management comments are responsive to the
                                                 recommendation.

 Quality of corrective action                    Finding: SBA’s corrective action plan for the 7(a) purchase process is
 plans                                           incomplete and based on an understated estimate of improper
                                                 payments. As previously noted, the SBA should have reported a rate of
 Criteria:                                       9.86%, or $232.2 million, rather than 1.73% and $40.7 reported.
     OMB M-11-16 - OIG                          Additionally, SBA’s corrective action plan does not identify all root
      evaluation whether        Improvement      causes of improper payments. Specifically, the OIG determined that
      corrective action plans     Needed         SBA’s improper payment review processes did not adequately test
      are robust and focused                     whether early defaulted loans complied with the SBA’s creditworthiness
      on the appropriate                         (including repayment ability) requirements. This is another area where
      root causes of                             our prior work has demonstrated that improper payments can occur.
      improper payments.
                                                 Recommendation 7: We recommend that the Associate Administrator
                                                 for Capital Access, upon completing the revised improper payment rate
                                                 projection for 7(a) purchases program, revise the corrective action plan
                                                 to identify all root causes of improper payments and appropriate
                                                 actions for reduction.

                                                 Agency Comment: Management partially agreed with our
                                                 recommendation. A corrective action plan to address the improper
                                                 payments for 7(a) guaranty purchases currently exists. The OFPO will
                                                 enhance the corrective action plan so that it also addresses the root
                                                 causes and amount of improper payments.

                                                 OIG Response: Management comments were responsive to the
                                                 recommendation.




                                                 12
Section III.       504 Loans
                   6B




Table 8. IPERA Compliance - 504 Loans

     IPIA Requirement          OIG Evaluation                                Discussion
 Posted Materials                               The SBA published improper payment disclosures for the program in the
                                                FY 2011 AFR. However, as noted in Table 9, management needs to
 Criteria:                                      improve the accuracy and completeness of posted materials.
     OMB M-11-16 - PAR or
      AFR published for the
                               Met Guidance
      most recent fiscal
      year.

 Risk Assessment
                                                Finding: The risk assessment methodology performed by the SBA
 Criteria:                                      generally addressed the minimum risk factors likely to contribute to
     OMB M-11-16 - a                           significant improper payments as provided within the OMB guidance.
      program risk                              However, the risk assessment itself may not be fully complete or
      assessment                Partially Met   accurate as it did not sufficiently address the risk of approving ineligible
      conducted.                 Guidance/      loans within the 504 loan program.
                               Improvement
                                  Needed
                                                Recommendation 8: We recommend that the Associate Administrator
                                                for Capital Access assess the risk of approving ineligible loans within the
                                                504 loan program.

                                                Agency Comment: Management agreed with our recommendation.
                                                The OFPO will adjust the risk assessment for FY 2012 and provide a
                                                separate risk assessment for 504 approvals.

                                                OIG Response: Management comments were responsive to the
                                                recommendation.

 Published Estimates for                        The SBA published an improper payment estimate in the FY 2011 AFR.
 Susceptible Programs                           However, as noted in Table 9, management needs to improve the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 -
                               Met Guidance
      improper payments
      estimates identified
      for susceptible
      improper payments.

 Annual reduction target                        The SBA published annual reduction targets in the FY 2011 AFR.
 met                                            However, as noted in Table 9, management needs to improve the
                                                accuracy and completeness of posted materials.
 Criteria:
     OMB M-11-16 –
                               Met Guidance
      Annual reduction
      targets met for each
      program assessed to
      be at risk.




                                                13
Table 8. IPERA Compliance – 504 Loans

     IPIA Requirement          OIG Evaluation                                Discussion
 Reported Rate of Less Than                     The SBA reported an improper payment rate of less than 10% in the FY
 10%                                            2011 AFR. However, as noted in Table 9, management needs to
                                                improve the accuracy and completeness of posted materials.
 Criteria:
     Gross improper
      payments reported at
                               Met Guidance
      rate of less than 10
      percent.

 Reported Recapture                             The SBA published payment recapture information in the FY 2011 AFR.
 Information

 Criteria:
     OMB M-11-16 -
                               Met Guidance
      Reported efforts
      regarding recapture of
      improper payments.




                                                14
Table 9. OIG Evaluation - 504 Loans

     IPIA Requirement         OIG Evaluation                                Discussion
 Overall Assessment of                         The SBA improper payments test procedures for the 504 loan approval
 Agency Efforts                                program were limited and did not result in an accurate rate of improper
                                               payments for the program. Additionally, the SBA’s corrective action
 Criteria:                                     plan was based on an incomplete testing process.
  OIG’s assessment of
                               Immediate
     Agency efforts to
                              Management
     prevent and reduce
                                Attention
     improper payments in
                                Required
     program area.
 Accuracy & Completeness                       Finding: SBA’s improper payments evaluation process for 504 loan
 of Agency Reporting                           approvals was not sufficient to effectively determine whether a
                                               debenture guaranty was properly made by the SBA or by CDCs with
 Criteria:                                     delegated approval authority. Specifically, the testing process was
  OMB M-11-16 - OIG                           limited to a review of SBA system data and a determination as to
                               Immediate
     assessment of internal                    whether the loan application, eligibility checklist, and SBA loan officer
                              Management
     controls related to                       report (for SBA-approved loans only) were completed prior to loan
                                Attention
     reported information;                     approval. The testing process did not require the reviewer to assess
                                Required
                                               compliance with eligibility, use of proceeds, creditworthiness, and
  13 CFR Part 120                             repayment ability requirements. These are key areas where our prior
   Business and Credit                         work has found that noncompliance could make a debenture guaranty
   Assistance;                                 improper.

  SOP 50 10 5 Lender and                      An ongoing OIG audit of 504 loans approved between June 1, 2009 and
   Development Company                         January 31, 2010 has identified that 5 of the 60 sampled loans were not
   Loan Programs.                              originated and closed in compliance with SBA’s policies and procedures.
                                               This resulted in inappropriate or unsupported loan approvals.

                                               Recommendation 9: We recommend that the Associate Administrator
                                               for Capital Access adjust the testing process for 504 loan approvals to
                                               ensure all necessary documentation is obtained and reviewed and a
                                               determination is made as to whether the loans were approved in
                                               compliance with the relevant SBA program regulations and
                                               requirements.

                                               Agency Comment: Management agreed with our recommendation.
                                               Enhancements will be made to the current testing process to include a
                                               more comprehensive review of the 504 loan approvals. This will ensure
                                               that all necessary documentation is obtained and reviewed and a
                                               determination is made as to whether the loans were approved in
                                               compliance with all SBA program regulations and requirements.

                                               OIG Response: Management comments were responsive to the
                                               recommendation.

 Performance in reducing                       We limited our review to the applicability of recapture audits. The SBA
 /recapturing improper                         has determined that payment recapture audits for this program would
 payments                                      not be cost effective because (1) only a small number of improper
                                               payment cases involve eligibility issues, (2) other documentation
 Criteria:                                     deficiencies could be corrected by the lender, and (3) in most cases, the
                                Compliant
     OMB M-11-16 -                            SBA would have no recourse for recovery against the lender on non-
                                 Process
      Agency’s performance                     delegated loan approvals.
      of recapture audit.




                                               15
Table 9. OIG Evaluation - 504 Loans

      IPIA Requirement          OIG Evaluation                                  Discussion
 Quality of corrective action                    Finding: The SBA did not prepare a corrective action plan or identify
 plans                                           root causes of improper payments for the 504 CDC loan approvals as it
                                                 identified an improper payment estimate of $0 for the program.
 Criteria:                                       However, our ongoing and past audits indicate, that the SBA may have a
     OMB M-11-16 - OIG                          higher improper payment rate in the 504 loan approvals program than
                                 Immediate
      evaluation whether                         reported. Once an accurate rate is determined, the SBA will need to
                                Management
      corrective action plans                    develop a corrective action plan to reduce improper payments.
                                  Attention
      are robust and focused
                                  Required
      on the appropriate                         Recommendation 10: We recommend that the Associate Administrator
      root causes of                             for Capital Access, upon revising the improper payments test
      improper payments                          procedures and estimating an accurate rate of improper payments,
                                                 develop a corrective action plan for 504 loan approvals that correctly
                                                 addresses root causes and will reduce improper payments.

                                                 Agency Comment: Management partially agreed with our
                                                 recommendation. When an improper payment is identified, OFPO will
                                                 develop and implement an appropriate corrective action plan that will
                                                 address the root cause and amount of the improper payment.

                                                 OIG Response: Management comments were responsive to the
                                                 recommendation.




                                                 16
Section IV.        Small Business Investment Company Payments
                   7B




Table 10. IPERA Compliance - Small Business Investment Company Payments

     IPIA Requirement          OIG Evaluation                                Discussion
 Posted Materials                               The SBA published improper payment disclosures for the program in the
                                                FY 2011 AFR.
 Criteria:
     OMB M-11-16 - PAR or
      AFR published for the
                               Met Guidance
      most recent fiscal
      year.

 Risk Assessment                                The SBA performed a risk assessment for improper payments for the
                                                program.
 Criteria:
     OMB M-11-16 - a
      program risk
      assessment               Met Guidance
      conducted.

 Published Estimates for                        The SBA published an improper payment estimate in the FY 2011 AFR.
 Susceptible Programs

 Criteria:
     OMB M-11-16 -
                               Met Guidance
      improper payments
      estimates identified
      for susceptible
      improper payments.

 Annual reduction target                        The SBA published annual reduction targets in the FY 2011 AFR.
 met

 Criteria:
     OMB M-11-16 –
                               Met Guidance
      Annual reduction
      targets met for each
      program assessed to
      be at risk.

 Reported Rate of Less Than                     The SBA reported an improper payment rate of less than 10% in the FY
 10%                                            2011 AFR.

 Criteria:
     Gross improper
      payments reported at
                               Met Guidance
      rate of less than 10
      percent.

 Reported Recapture                             The SBA published payment recapture information in the FY 2011 AFR.
 Information

 Criteria:
     OMB M-11-16 -
                               Met Guidance
      Reported efforts
      regarding recapture of
      improper payments.

                                                17
Table 11. OIG Evaluation - Small Business Investment Company Payments

     IPIA Requirement           OIG Evaluation                                Discussion
 Overall Assessment of                           The Agency appears to be reporting accurate and complete improper
 Agency Efforts                                  payment information for the SBIC program based on our limited testing.

 Criteria:
     OIG’s assessment of
                                  Compliant
      Agency efforts to
                                   Process
      prevent and reduce
      improper payments in
      program area.

 Accuracy & Completeness                         The Agency’s reporting for improper payments in the SBIC program
 of Agency Reporting                             appears to be accurate and complete based on our limited testing of the
                                                 program.

 Criteria:
                                  Compliant
     OMB M-11-16 - OIG
                                   Process
      assessment of internal
      controls related to
      reported information.

 Performance in reducing or                      We limited our review to the applicability of recapture audits. The SBA's
 recapturing improper                            decision not to perform payment recapture audits for the SBIC program
 payments                                        appears to be reasonable based on our limited testing of the program.

 Criteria:
                                  Compliant
     OMB M-11-16 -
                                   Process
      Agency’s performance
      of recapture audit.

 Quality of corrective action                    The Agency’s corrective action plan for the SBIC program appears to be
 plans                                           adequate based on our limited testing of the program.

 Criteria:
     OMB M-11-16 - OIG
                                  Compliant
      evaluation whether
                                   Process
      corrective action plans
      are robust and focused
      on the appropriate
      root causes of
      improper payments




                                                 18
Section V.         Disaster Loans
                   8B




Table 12. IPERA Compliance – Disaster Loans

     IPIA Requirement          OIG Evaluation                               Discussion
 Posted Materials                               We reviewed the FY 2011 AFR and determined that all materials
                                                required by OMB were appropriately included.
 Criteria:
     OMB M-11-16 - PAR or
      AFR published for the
                               Met Guidance
      most recent fiscal
      year.

 Risk Assessment                                We determined that the SBA’s risk assessment appropriately identified
                                                disaster assistance as a high-risk program subject to an improper
 Criteria:                                      payments review.
     OMB M-11-16 - a
      program risk
      assessment               Met Guidance
      conducted.

 Published Estimates for                        The SBA reported estimates for FY 2012, 2013, and 2014 in its FY 2011
 Susceptible Programs                           AFR.

 Criteria:
     OMB M-11-16 -
                               Met Guidance
      improper payments
      estimates identified
      for susceptible
      improper payments.

 Annual reduction target                        The SBA’s improper payments rate goal for FY 2011 was 20 percent.
 met                                            The actual rate reported for FY 2011 was 28.4 percent. Although the
                                                target rate was not achieved, the Agency did reduce the improper
 Criteria:                                      payments rate from 34.2 percent in FY 2010.
     OMB M-11-16 –
      Annual reduction         Improvement
      targets met for each       Needed
      program assessed to
      be at risk.

 Reported Rate of Less Than                     Finding: The SBA reported an improper payments rate for FY 2011 of
 10%                                            28.4 percent. The Agency noted that the improper payment rate due to
                                                ineligible loans or incorrect amounts is 12.1 percent. The remaining
 Criteria:                                      improper payments are due to documentation errors. The reported
     Gross improper                            rate significantly exceeds the 10 percent required to be in compliance
                                Immediate
      payments reported at                      with IPERA requirements. Implementing recommendation 11 in Table
                               Management
      rate of less than 10                      13 should assist the Agency in reducing the rate below 10 percent.
                                 Attention
      percent.
                                 Required

 Reported Recapture                             The SBA reported on its efforts to recapture improper payments. The
 Information                                    SBA stated that improper payments are not recovered upon discovery
                                                but realized through the loan repayment process.
 Criteria:
     OMB M-11-16 -
                               Met Guidance
      Reported efforts
      regarding recapture of
      improper payments.

                                                19
Table 13. OIG Evaluation – Disaster Loans

     IPIA Requirement          OIG Evaluation                                    Discussion
 Overall Assessment of                          Finding: The SBA reported an improper payments rate of 28.4 percent,
 Agency Efforts                                 an amount greater than the 10 percent specified to be compliant with
                                                IPERA. Although this rate decreased from 34.2 percent the prior year,
 Criteria:                                      the Office of Disaster Assistance’s (ODA) corrective action plan has not
     OIG’s assessment of                       identified all root causes and a related methodology to further reduce
      Agency efforts to        Improvement      errors. In addition, the ODA has not instituted a recapture audit
      prevent and reduce         Needed         program to recover improper payments as required by OMB guidance.
      improper payments in
      program area.                             Recommendation 11: We recommend that the Associate Administrator
                                                for Disaster Assistance develop a corrective plan that identifies all root
                                                causes and develop a methodology to reduce the errors associated with
                                                each root cause.

                                                Agency Comment: Management partially agreed with our
                                                recommendation. The ODA provided a corrective action plan that is
                                                contained in the FY 2011 AFR. The ODA will expand the plan to develop
                                                a more detailed description of the root causes for the exceptions that
                                                have been determined to be erroneous. The root cause identified in the
                                                plan shows training for both the documentation error and the eligibility
                                                errors. The plan lays out a course of action to be taken to address the
                                                erroneous exceptions.

                                                OIG Response: Management comments were responsive to the
                                                recommendation.

 Accuracy & Completeness                        We performed a limited review of the improper payments
 of Agency Reporting                            measurement process and did not identify non-compliance.

 Criteria:
     OMB M-11-16 - OIG
                                 Compliant
      assessment of internal
                                  Process
      controls related to
      reported information.




                                                20
Table 13. OIG Evaluation – Disaster Loans

      IPIA Requirement          OIG Evaluation                                     Discussion
 Performance in reducing or                      Finding: Guidance under OMB M-11-16 requires agencies to conduct
 recapturing improper                            payment recapture audits for each program that expends $1 million or
 payments                                        more annually if conducting such audits would be cost-effective. A cost-
                                                 effective payment recapture audit program is one in which the benefits
 Criteria:                                       exceed the costs (time and resources or payments for audit contractor)
     OMB M-11-16 -             Improvement      associated with implementing and overseeing the program. The ODA
      Agency’s performance        Needed         reported in the FY 2011 AFR that loans are repaid and if not repaid, the
      of recapture audit.                        collateral will assure collection of loan funds. Therefore, the ODA
                                                 makes no efforts to recapture improper payments since it believes that
                                                 collateralizing the loans and requiring repayment is a built-in recovery
                                                 system. Even if this assertion was true and the borrowers did return all
                                                 loan funds, they would have the received the benefit of a low interest
                                                 loan that they were not entitled to under SBA regulations. Although
                                                 ODA management maintains that payment recapture audits would not
                                                 be cost effective, it has not provided detailed analysis, which supports
                                                 this claim.

                                                 Recommendation 12: We recommend that the Associate Administrator
                                                 for Disaster Assistance perform detailed analysis of the cost-
                                                 effectiveness of a payment recapture audit program. Such analysis
                                                 should conclude whether the benefits of a recapture program would
                                                 exceed the costs. If so, a payment recapture audit program should be
                                                 implemented.

                                                 Agency Comment: Management partially agreed with our
                                                 recommendation. The ODA provided a Payment Recapture Audit Cost-
                                                 Effective Analysis as part of the September 15, 2011 document. In FY
                                                 2012, the agency will determine the most appropriate overall approach
                                                 to a robust and cost-effective agency payment recapture program

                                                 OIG Response: Management comments were responsive to the
                                                 recommendation.

 Quality of corrective action                    Finding: The corrective action plan was insufficient because root causes
 plans                                           are not adequately identified. The SBA stated that in the FY 2011 AFR
                                                 the root cause for all identified improper payments for the Disaster
 Criteria:                                       program was administrative and documentation errors. However, this
     OMB M-11-16 - OIG                          is inconsistent with other ODA reports that identify an improper
      evaluation whether        Improvement      payment rate for FY 2011 of 28.4 percent, 12.1 percent of which was
      corrective action plans     Needed         due to eligibility issues, not documentation errors. In the FY 2011 AFR,
      are robust and focused                     ODA refers only to existing measures to reduce eligibility errors, not
      on the appropriate                         new measures designed to reduce the 12.1 percent improper payments
      root causes of                             rate due to eligibility issues. Thus, SBA's efforts are not sufficient to
      improper payments.                         meet reduction targets.

                                                 Same as recommendation 11.




                                                 21
Section VI.        Disbursements/Contracting
                   9B




Table 14. IPERA Compliance - Disbursements/Contracting

     IPIA Requirement          OIG Evaluation                                   Discussion
 Posted Materials                               Finding: The SBA’s FY 2011 AFR did not include a Corrective Action Plan,
                                                a Payment Recapture Audit Plan, and provided insufficient information
 Criteria:                                      within its Improper Payment Reduction Outlook table for its Acquisition
     OMB M-11-16 - PAR or                      Program, as required by the OMB. Specifically, the agency did not
      AFR published for the                     perform a root cause analysis and did not develop and publish a
                                Immediate
      most recent fiscal                        Corrective Action Plan. Similarly, the SBA did not develop and publish a
                               Management
      year.                                     Payment Recapture Audit Plan for the Acquisition Program. According
                                 Attention
                                                to the SBA, payment recapture audits are not cost effective; however,
                                 Required
                                                the SBA did not provide analysis or any support for this claim. In
                                                addition, the SBA included an Improper Payment Reduction Outlook
                                                table within its FY 2011 AFR but inaccurately reported that most of the
                                                Acquisition Program details were “not applicable.”

 Risk Assessment                                The SBA performed a risk assessment that met IPERA guidelines.

 Criteria:
     OMB M-11-16 - a
      program risk
      assessment               Met Guidance
      conducted.
 Published Estimates for                        Finding: The SBA published its 89 percent improper payment rate within
 Susceptible Programs                           its FY 2011 AFR; however, the agency did not report its improper
                                                payments rate in accordance with OMB guidance. Instead, the SBA
 Criteria:                                      inappropriately claimed that FY 2011 provided a test measurement and
     OMB M-11-16 -                             SBA would refine its measurement and report an improper payment
      improper payments         Partially Met   rate in FY 2012. However, the SBA did not obtain an OMB waiver
      estimates identified       Guidance/      excluding SBA’s improper payment reporting requirement. In addition,
      for susceptible          Improvement      the SBA published within the Improper Payment Reduction Outlook
      improper payments;          Needed        table that its 89 percent improper payment rate was “not applicable”
                                                because FY 2011 was a test year.
    OMB Circular Number
     A-136, Revised –
     Report the programs
     and activities
     susceptible significant
     improper payments.

 Annual reduction target            N/A         FY 2012 was the first year for IPERA. Prior to FY 2012, the SBA did not
 met                                            establish improper payment annual reduction targets for its contracting
                                                activities.
 Criteria:
     OMB M-11-16 –
      Annual reduction
      targets met for each
      program assessed to
      be at risk.




                                                22
Table 14. IPERA Compliance – Disbursements/Contracting

     IPIA Requirement            OIG Evaluation                                  Discussion
 Reported Rate of Less Than                       Finding: The SBA published an 89 percent improper payment rate for its
 10%                                              Acquisition Program in the FY 2011 AFR. Despite the significance of this
                                                  improper payment rate, the agency did not develop or publish a
 Criteria:                                        Corrective Action Plan and a Payment Recapture Audit Plan as required
     OMB M-11-16 - Gross                         by OMB guidance. This does not comply with IPERA and IPIA
                                  Immediate
      improper payments                           requirements and leaves the SBA at high risk of future improper
                                 Management
      reported at rate of less                    payments.
                                   Attention
      than 10 percent;
                                   Required


 Reported Recapture                               Finding: The SBA did not develop a Payment Recapture Audit Plan for
 Information                                      the Acquisition Program. According to the agency, payment recapture
                                                  audits are not cost effective; however, they performed no analysis and
 Criteria:                                        had no support for this claim.
     OMB M-11-16 -
                                  Immediate
      Reported efforts
                                 Management
      regarding recapture of
                                   Attention
      improper payments.
                                   Required




                                                  23
Table 15. OIG Evaluation - Disbursements/Contracting

     IPIA Requirement         OIG Evaluation                                   Discussion
 Overall Assessment of                         Finding: The agency’s efforts did little to mitigate the risk of future
 Agency Efforts                                improper payments within its Acquisition Program. Specifically:
                                                         The SBA’s test plan did not provide reasonable assurance of
 Criteria:                                                detecting improper payments;
     OIG’s assessment of                                SBA personnel responsible for developing the test plan and
                               Immediate
      Agency efforts to                                   performing the SBA’s improper payment review did not have
                              Management
      prevent and reduce                                  contracting backgrounds and had limited contract training;
                                Attention
      improper payments in                               The SBA did not report its improper payments in accordance
                                Required
      program area;                                       with OMB requirements;
                                                         The SBA identified an 89 percent improper payment rate;
                                                         The SBA’s personnel did not determine the root cause(s) of its
                                                          improper payments; and
                                                         The SBA did not develop and publish a Corrective Action Plan
                                                          and a Payment Recapture Audit Plan.
                                               As a result, the SBA’s FY 2011 improper payment review and reporting
                                               for its Acquisition Program did not comply with IPERA, IPIA, and OMB
                                               requirements. Therefore, the SBA must prepare and submit a plan
                                               describing the actions that the agency will take to become compliant.

                                               Summary of recommendations: In OIG Advisory Memorandum 12-07,
                                               our recommendations address the need for written policies and
                                               procedures, and the drafting and implementation of (1) a corrective
                                               action plan that identifies root causes, and (2) a payment recapture
                                               audit plan, unless it can be demonstrated that payment recapture
                                               audits are not cost effective.

                                               Agency Comments: The OCFO also did not agree with our assertion of
                                               non-compliance in the disbursements and contracting areas because it
                                               was the first year of evaluation and management believed they were
                                               not required to do anything more than they performed.

                                               OIG Response: The OIG was not provided a written waiver from OMB
                                               exempting the SBA from the IPERA process. For a more detailed
                                               explanation see OIG Advisory Memorandum 12-07.

 Accuracy & Completeness                       Finding: The SBA’s test plan and review process were inadequate.
 of Agency Reporting                           While the SBA identified an 89 percent improper payment rate, it failed
                                               to identify multiple significant payment errors that we identified during
 Criteria:                                     our review. For example the SBA:
  OMB M-11-16 - OIG                                  did not identify underpayments to contractors;
                               Immediate
     assessment of internal                           miscalculated interest penalties;
                              Management
     controls related to
                                Attention             paid for services not authorized by contracts;
     reported information;
                                Required              paid invoices that violated contract terms; and,
                                                      paid invoices with rates that were different than those
                                                          established in the contract.

                                               As such, the SBA may have understated the improper payment rate for
                                               its Acquisition Program during FY 2011. In addition, the SBA did not
                                               report its improper payments rate in accordance with OMB guidance
                                               and did not have an OMB waiver exempting the SBA from this
                                               requirement. Instead, the SBA claimed FY 2011 was a test year.




                                               24
Table 15. OIG Evaluation - Disbursements/Contracting


      IPIA Requirement          OIG Evaluation                                  Discussion
 Performance in reducing or                      Finding: We limited our review to the applicability of recapture audits.
 recapturing improper                            The SBA did not develop a Payment Recapture Audit Plan for the
 payments                                        Acquisition Program. According to the SBA, payment recapture audits
                                                 are not cost effective; however, they performed no analysis and had no
 Criteria:                                       support for this claim.
                                 Immediate
     OMB M-11-16 -
                                Management
      Agency’s performance
                                  Attention
      of recapture audit.
                                  Required

 Quality of corrective action                    Finding: The SBA did not develop a corrective action plan that identifies
 plans                                           the root cause(s) of improper payments for the Acquisition Program.
                                                 According to the FY 2011 AFR, SBA’s 89 percent improper payment rate
 Criteria:                                       was a test measure and the agency plans to wait until FY 2012 before
     OMB M-11-16 - OIG                          reporting the improper payments of its Acquisition Program.
                                 Immediate
      evaluation whether
                                Management
      corrective action plans
                                  Attention
      are robust and focused
                                  Required
      on the appropriate
      root causes of
      improper payments.




                                                 25
AGENCY COMMENTS AND OIG RESPONSE
On February 27, 2012, we provided a draft of this report to the Chief Financial Officer, Associate
Administrator for Capital Access, Associate Administrator for Disaster Assistance, and Associate
Administrator for Investment and Innovation. On March 12, 2012, the Office of Inspector
General received SBA’s final comments. A summary of management’s comments and our
response follows.

Agency Comments
We included management comments and OIG’s evaluation in the detailed findings. The SBA
prepared a coordinated response and emphasized its commitment to the successful
implementation of IPERA. Specifically, the SBA fully agreed with five recommendations and
partially agreed with seven recommendations. The OCFO also did not agree with our assertion
of non-compliance in the disbursements and contracting areas because it was the first year of
evaluation and management believed they were not required to do anything more than they
performed.

A full copy of the SBA’s response is provided in Appendix I.

OIG Response
We found the SBA’s overall approach to IPERA compliance to be responsive but believe the SBA
needs to further specify planned improvement activities with related milestones in the
respective program areas. In regard to the OCFO response, the OIG was not provided a written
waiver from OMB exempting the SBA from the IPERA process. For a more detailed explanation
see OIG Advisory Memorandum 12-07.

Where appropriate, we will work with the SBA during the audit resolution cycle to further detail
necessary corrective actions.

Actions Required
Please provide your management decision for each recommendation on the attached SBA
Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report. Your
decision should identify the specific action(s) taken or planned for each recommendation and
the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this
audit. If you have any questions concerning this report, please call me at (202) 205-7390 or Jeff
Brindle, Director, Information Technology and Financial Management Group at (202) 205-7490.




                                            26
Appendix I: Agency Comments




                             U.S. SMALL BUSINESS ADMINISTRATION
                                     WASHINGTON, D.C. 20416



To:       John K. Needham
          Assistant Inspector General for Auditing

From: Jonathan I. Carver
      Chief Financial Officer

          Jeanne A. Hulit
          Associate Administrator for Capital Access

          James Rivera
          Associate Administrator for Disaster Assistance

          Sean Greene
          Associate Administrator for Investment and Innovation

Date: March 12, 2012

Re:       Response to Review of SBA’s Improper Payments, Project 11010

The U.S. Small Business Administration (SBA) is committed to the successful
implementation of the Improper Payments Elimination and Recovery Act (IPERA), and
we fully support the tenets of the President’s Executive Order 13520 aimed at
intensifying efforts to eliminate payment error, waste, fraud, and abuse in the major
programs administered by the Federal Government. As stewards of taxpayer dollars we
recognize the importance of:

         Transparency and public scrutiny of significant payment errors throughout the
          Federal Government;

         Focus toward identifying and eliminating the highest improper payments; and

         Accountability for and coordination in reducing improper payments among
          executive branch agencies.




                                          27
We place a high value upon our successful compliance in this first year of reporting
under IPERA, as supported by your draft report. Per your report, all programs were
compliant in FY 2011, with the exception of contracting/disbursements, which was
assessed for the first time this year.
Nevertheless, we realize that implementation does not end with compliance. The very
spirit of the law necessitates reducing risk in all areas of the agency by strengthening our
controls and improving our business processes. It is important we understand what
makes a payment “improper” and the level of risk posed, something which varies across
our programs.
Each program included in your draft compliance report serves a different role in
achieving the agency’s mission of meeting the needs of today’s small businesses. For
example, in the 7(a) and 504 programs, SBA is guaranteeing loans and debentures, and
for Disaster Assistance, SBA is directly providing the loan. Although the appropriate
measurements and assessments are conducted at the program level, SBA’s Executive
leadership and senior management are committed to a collective agency-wide approach
to reduce improper payments.
We have developed a comprehensive plan that requires the program offices to monitor
their achievements in each of these four key components:

      Robust risk assessment

      Complete and accurate reporting

      Comprehensive corrective action plan

      Effective recapture activities
In this way we will continue to refine and improve our measures and the payment
recapture activities already underway at the SBA. In FY 2012, we will re-evaluate the
most appropriate overall approach to a robust and cost-effective agency payment
recapture program.
The following response addresses the findings and recommendations contained in the
Office of the Inspector General (OIG) Review of SBA’s Compliance with the Improper
Payments Elimination and Recovery Act (IPERA). We thank you for the opportunity to
comment upon your draft report on our compliance in FY 2011 IPERA reporting and
look forward to continuing to work with you on this critical subject.


Office of Capital Access
The Office of Capital Access (OCA) has standardized procedures and process controls in
all Office of Financial Program Operations (OFPO) loan processing centers that are
designed to process transactions with minimal improper payments. OFPO interjects into
these procedures and process controls audit findings from OIG and KPMG, as well as


                                         28
internal control review results by our OCFO, and quality control and improper payment
reviews conducted within OFPO.
The OFPO quality program performs continual quality reviews independent of the
processing centers. The quality program proactively targets high risk areas for quality
review in order to minimize improper payments. The program also utilizes end-to-end
implementation of corrective actions in all centers, and provides real-time feedback and
training to employees, to address the root causes of improper payment. These findings
and corrective actions also inform policy and processes, as identified in the preceding
paragraph.
OFPO has an improper payment recapture plan in place that was developed in
coordination with OIG that promptly records improper payments and tracks the recapture
of these funds. OFPO attempts to recover all funds on a timely basis through invoicing
the participating lenders. If the lender refuses or disputes the improper payment, OFPO
will refer the matter to its Office of General Counsel for review for litigation. If OGC
determines litigation is appropriate, the decision to pursue is presented to the OCA
Associate Administrator for final approval.
OIG Recommendations and Agency Responses

7(a) Approvals
   1. Adjust the risk assessment to separately assess the risk of improper 7(a) guaranty
      loan approvals and improper 7(a) guaranty defaults.
       OCA Response: We agree with this recommendation. OFPO will adjust the risk
       assessment for FY 2012 and provide a separate risk assessment for 7(a) approvals
       and 7(a) guaranty purchases.
   2. Adjust the testing process for 7(a) loan approvals to ensure all necessary
      documentation is obtained and a determination is made as to whether the loans
      were approved in compliance with all program regulations and requirements.
       OCA Response: We agree with this recommendation. Enhancements will be
       made to current testing processes to include a more comprehensive review of the
       7(a) loan approvals. This will ensure that all necessary documentation is obtained
       and reviewed and a determination is made as to whether the loans were approved
       in compliance with all SBA program regulations and requirements.
   3. Upon revising the improper payments test procedures and estimating an accurate
      rate of improper payments, develop a corrective action plan that correctly
      addresses root causes and reduces improper payments.
       OCA Response: We partially agree with this recommendation. When an
       improper payment is identified, OFPO will develop and implement an appropriate
       corrective action plan that will address the root cause and amount of the improper
       payment.


                                        29
7(a) Guaranty Purchases
   4. Require loan officers to thoroughly evaluate creditworthiness (including
      repayment ability) on early default loans during both guaranty purchase and
      improper payment reviews.
      OCA Response: We agree with this recommendation. OFPO will reemphasize
      the requirement that loan officers thoroughly review of repayment ability and
      creditworthiness on early default loans during guaranty purchase and improper
      payment reviews. We recognize that there are varying levels of credit analysis
      experience among center staff, and we will provide credit analysis training, as
      well as quality control feedback, to loan officers to strengthen the
      creditworthiness review.
   5. Determine and report an accurate statistically valid estimate of improper 7(a)
      default purchases for FY 2011 in the next Annual Financial Report (AFR).
      OCA Response: We partially agree with this recommendation. The statistical
      methodology used by OCA resulted in an estimate of the improper payment rate
      for 7(a) guaranty purchases, which was reported in the Agency’s FY 2011 AFR.
      OIG’s methodology, however, resulted in a higher rate due to the impact of 5
      loans that the OIG identified as improper payments. Four of the 5 loans
      represented very small dollar amounts of improper payment, and had little impact
      on the overall improper payment rate. The fifth loan was very large and had a
      significant impact on the rate determined by the OIG due to the smaller sample
      size than that used by OCA. This projection methodology most likely
      represents the difference between the OCA improper payment rate of 1.73% and
      the OIG reported rate of 9.86% for 7(a) guaranty purchases. OCA recognizes
      that the true improper payment rate lies between OCA’s 1.73% and OIG’s
      9.86%. OCA is now working closely with the OIG to agree upon a consistent
      methodology for determining the estimated improper payment rate for the next
      reporting period.
   6. Upon completing the revised improper payment rate projection for 7(a) purchases,
      conduct a detailed and objective cost/benefit analysis for payment recapture audits
      of 7(a) purchases.
      OCA Response: We partially agree with this recommendation. As stated in
      number 5 above, OCA has reported an improper payment estimate that differs
      from the OIG estimate, and is working closely with OIG to agree upon a
      consistent methodology for the next reporting period. We will reevaluate the
      current cost/benefit analysis to determine if a recapture audit of 7(a) purchases is
      cost effective.




                                       30
   7. Upon completing the revised improper payment rate projection for 7(a) purchases
      program, revise the corrective action plan to identify all root causes of improper
      payments and appropriate actions for reduction.
       OCA Response: We partially agree with this recommendation. A corrective
       action plan to address the improper payments for 7(a) guaranty purchases
       currently exists. OFPO will enhance the corrective action plan so that it also
       addresses the root causes and amount of improper payments.

504 Approvals
   8. Assess the risk of approving ineligible loans within the 504 loan program.
       OCA Response: We agree with this recommendation. OFPO will adjust the risk
       assessment for FY 2012 and provide a separate risk assessment for 504 approvals.
   9. Adjust the testing process for 504 loan approvals to ensure all necessary
      documentation is obtained and reviewed and a determination is made as to
      whether the loans were approved in compliance with all SBA program regulations
      and requirements.
       OCA Response: We agree with this recommendation. Enhancements will be
       made to the current testing process to include a more comprehensive review of the
       504 loan approvals. This will ensure that all necessary documentation is obtained
       and reviewed and a determination is made as to whether the loans were approved
       in compliance with all SBA program regulations and requirements.
   10. Upon revising the improper payments test procedures and estimating an accurate
       rate of improper payments, develop a corrective action plan that correctly
       addresses root causes and will reduce improper payments.
       OCA Response: We partially agree with this recommendation. When an
       improper payment is identified, OFPO will develop and implement an appropriate
       corrective action plan that will address the root cause and amount of the improper
       payment.


Office of Disaster Assistance
The Office of Disaster Assistance (ODA) understands the importance of complying with
the Improper Payments Elimination and Recovery Act (IPERA) of 2010. In FY 2009,
ODA revised its methodology that resulted in an increase in the reported rate of improper
payments. ODA is working on reducing the reported improper payment rate to be in
compliance with IPERA. ODA has reported on Improper Payments as required since the
inception of the Improper Payments Information Act (IPIA) of 2002.
ODA has reviewed the Office of Inspector General’s draft Executive Summary regarding
SBA’s Improper Payments. OIG identified ten IPERA Requirements for ODA. Of the
ten requirements, five requirements were found to be compliant; four requirements

                                        31
partially met guidance but needed improvement; and one requirement needed immediate
attention. These findings conclude that ODA has an accepted practice for compliance;
however, the reported rate exceeded the ten percent compliance rate.
In order to meet or exceed the compliance rate, ODA is addressing/instituting the
following:

      ODA has a corrective action plan that identifies all root causes and a methodology
       to reduce errors associated with each root cause. ODA will expand the corrective
       action plan to provide a more detailed explanation of the root causes.

      ODA has provided a more detailed explanation of the training to the specific
       departments, as well as targeted training to the identified individuals associated
       with each root cause of the Improper Payment. Our 2012 explanation will further
       expand on the root cause(s) and the targeted training to reduce Improper
       Payments. This is in addition to continuing to provide general training to ODA’s
       Processing and Disbursement Center (PDC) employees, with special emphasis on
       Improper Payments and notations,

      Improper payments are a result of the functions associated with ODA’s PDC. In
       FY 2012 ODA has included Improper Payments in Personal Business
       Commitment Plans for employees in the PDC.

      In FY 2012, the agency will determine the most appropriate overall approach to a
       robust and cost-effective agency payment recapture program.

      The business case we previously provided to OMB verbally will be updated for
       the IG and OMB. The business case eliminates documentation errors and defines
       Improper Payments as:
           o Ineligible borrower
           o Improper use of proceeds
           o Incorrect loan amount

Documentation errors are currently considered Improper Payments. It should be pointed
out that with documentation errors adjusted out of the FY 2011 Improper Payment rate,
the rate would have been 12.1 percent which is much closer to the 10% required for
IPERA compliance.

OIG Recommendations and Agency Responses
   11. Develop a corrective plan that identifies all root causes and develop a
       methodology to reduce the errors associated with each root cause.
       ODA Response: We partially agree with the recommendation. We have provided
       a corrective action plan that is contained in the AFR. We will expand the plan to
       develop a more detailed description of the root causes for the exceptions that have
       been determined to be erroneous. The root cause identified in the plan shows



                                        32
                   training for both the documentation error and the eligibility errors. The plan lays
                   out a course of action to be taken to address the erroneous exceptions.
               12. Perform detailed analysis of the cost-effectiveness of a payment recapture audit
                   program. Such analysis should conclude whether the benefits of the recapture
                   program would exceed the costs.
                   ODA Response: We partially agree with the recommendation. We provided a
                   Payment Recapture Audit Cost-Effective Analysis as part of the September 15,
                   2011 document. In FY 2012, the agency will determine the most appropriate
                   overall approach to a robust and cost-effective agency payment recapture program


           Office of the Chief Financial Officer
           The Office of the Chief Financial Officer (OCFO) does not concur with the implication
           of non-compliance for SBA’s contracting program contained in the OIG’s draft report.
           We completed the requirements in accordance with the evaluation criteria expressly
           presented in the OIG’s draft report and in compliance with OMB guidance.7
           We appreciate the effort undertaken to provide the observations in your Draft Advisory
           Memorandum and the additional evaluation of our efforts contained in your draft report.
           We believe your report reemphasizes the opportunities for which we aim to continue to
           strengthen our business processes surrounding our contracting program. We look
           forward to continuing our collaboration with you as we implement IPERA.

           Demonstrating Compliance
           The SBA’s $130 million contracting program was excluded from improper payments
           reporting prior to FY 2011, when the threshold for reporting was decreased to $1 million
           upon IPERA’s enactment. Consistent with the OMB guidance8 and as discussed in the
           AFR, we completed Step 1 of the OMB guidance in FY 2011 by conducting the risk
           assessment for our contracting office and subsequently determined the program to be
           risk-susceptible. The reporting requirements, as interpreted (and confirmed by OMB), do
           not require the agency to conduct both the risk assessment (Step 1) and establish the
           measurement and methodology (Step 2) within the same year. We plan to implement
           Step 2 in FY 2012 by determining the most appropriate, statistically valid methodology to
           measure our estimated improper payments rate, which allows us to complete Steps 3 and
           4, Implementing a plan to reduce improper payments and Reporting annual estimates and
           progress in reductions, respectively. Therefore, publishing FY 2011 estimated rates and
           future reduction targets in the AFR is not applicable to the contracting program. Contrary
           to findings in the OIG’s draft report, the SBA’s Improper Payments Reduction Outlook

7
    As defined in Part II of OMB Circular A-123, Appendix C: Compliance with the Improper Payments Requirements
8
 Part I, Section A) Identification and Reporting of Susceptible Programs and Activities of OMB Circular A-123,
Appendix C


                                                         33
        table in the AFR was prepared in accordance with the OMB Circular A-136, Financial
        Reporting Requirements, which requires: (1) Including the contracting program whether
        or not a measure was reported; (2) The date we expect a measurement in footnote 4; and
        (3) Indication of “n/a” for FY 2011 as the Current Year (or baseline). Specifically, item
        (3) is permitted without necessity of OMB waiver on page 153 in the FY 2011 A-136.
        Additionally, to ensure compliance in our preparation of the IPERA reporting for
        publication in the AFR, we used the checklist of requirements in Section II Compliance
        with the Improper Payments Requirements of the OMB guidance. The guidance states
        that an agency is not compliant if it fails to complete one or more of the seven items
        listed, of which three are not applicable for FY 2011 reporting upon contracting9. The
        guidance also provides for an evaluation of the accuracy, completeness, and performance
        of an agency’s reporting in addition to the listed requirements; however, compliance is
        not determined by an “effort” assessment.
        Specifically, we completed the following reporting requirements in FY 2011:

             1. Published the FY 2011 AFR and posted the report on the agency website
                 These materials were prepared and reported in accordance with OMB Circulars
                 A-123 and A-136. The AFR is available at (http://www.sba.gov/content/fy-2011-
                 agency-financial-report-afr).
             2. Conducted the risk assessment and determined Contracting as risk-
                susceptible.
             3. Included planned corrective actions in the AFR
                 The AFR includes high-level Corrective Actions currently being implemented by
                 the agency and appears on page 115. The past-tense verbiage, “has been taken”
                 was a clerical error. A more comprehensive Corrective Action Plan will be
                 developed in FY 2012 once the appropriate measurement and methodology is
                 established.

             4. Reported upon our efforts to recapture improper payments
                 Conducting a payment recapture audit is not a determining element for
                 compliance with IPERA. The agency is required by the OMB guidance to report
                 upon its effort to recapture improper payments, not to perform a recapture audit.
                 The OIG draft report indicates the performance of a recapture audit was its sole
                 factor in evaluating the agency’s performance in reducing or recapturing improper
                 payments. The determination that a payment recapture audit program is not cost-
                 effective for this program (eliminating the need to prepare a Recapture Audit
                 Plan) was reported, as required, in September 15, 2011.This is supported by initial
                 testing that suggested only 3% in erroneous payments. In FY 2012, the agency

9
 Estimates and reduction targets will be reporting in FY 2012 upon the determination of the appropriate
methodology required in Step 2.


                                                       34
       will determine the most appropriate overall approach to a robust and cost-
       effective agency payment recapture program.
Given this evidence, we assert our compliance in IPERA reporting as defined in the
OMB guidance and as reiterated in the OIG’s criteria for evaluation. We believe our
compliance merits the designation of “Met Guidance.” As suggested by the evaluation of
agency effort in the draft report, management attention is focused on the findings
presented by the OIG, as indicated in its response to the draft Advisory Memorandum.


Office of Investment and Innovation
The Office of Investment and Innovation concurs with the comments of the OIG relative
to the SBIC program. We have and will continue to review our processes to ensure such
improper payments are minimized.




                                       35
